HHS/OIG-Audit--"Safeguarding Long Term Care Residents, (A-12-97-00003)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Safeguarding Long Term Care Residents," (A-12-97-00003)
September 14, 1998
Complete Text of Report is available in PDF format
(347 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
Our audit of 8 Maryland nursing homes disclosed 51 employees that, according
to FBI records, had been convicted for a variety of crimes. The employees included
certified nurse aides as well as staff holding jobs not subject to background
checks. Also, our background check of 35 individuals who had been convicted
of elder abuse in Maryland showed 7 had prior convictions for other types of
crimes, including those against people. An audit of Illinois nursing homes demonstrated
similar results. These audits plus surveys in other States clearly indicate
that, among other things, the Health Care Financing Administration (HCFA) and
the Administration on Aging (AoA) should work with the States to improve the
safety of long term care residents and to strengthen safeguards against the
employment of abusive workers by elder care facilities. The HCFA should also
consider establishing Federal requirements and criteria for performing criminal
background checks. The HCFA and AoA generally agreed with our findings and recommendations.